No. 20-7188
IN THE

Supreme Court of the United States
SEDRIC RASHAD MARION,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

CERTIFICATE OF SERVICE
I, Jaime A. Santos, counsel for Petitioner and a member of the Bar of this
Court, certify pursuant to Supreme Court Rules 29.3, 29.4, and 29.5 (as modified by
the Court’s Order of April 15, 2020) that I have, this 26th day of May 2021, served
the Reply Brief for Petitioner upon each party separately represented in this
proceeding by e-mail (pursuant to the parties’ prior agreement) to counsel of record
at the address listed below:
ELIZABETH B. PRELOGAR
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE, NW
WASHINGTON, D.C. 20530
SupremeCtBriefs@USDOJ.gov
In addition, pursuant to Supreme Court Rules 29.3 and 29.7, I have caused
electronic copies of all documents to be filed with the Clerk.
I further certify that all persons required to be served have been served.

May 26, 2021

____________________________
JAIME A. SANTOS
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
jsantos@goodwinlaw.com
(202) 346-4000
Counsel for Petitioner

